Nos. 20-429

In the
Supreme Court of the United States
______________________________

AMERICAN MEDICAL ASSOCIATION, et al.,
Petitioners,
v.
ALEX M. AZAR, II, Secretary of Health and Human Services, et al.,
Respondents.
_____________________________
BRIEF FOR RESPONDENTS THE STATES OF OREGON, NEW YORK, CALIFORNIA,
COLORADO, CONNECTICUT, DELAWARE, HAWAI‘I, ILLINOIS, MARYLAND,
MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW MEXICO,
NORTH CAROLINA, PENNSYLVANIA, RHODE ISLAND, VERMONT, VIRGINIA, AND
WISCONSIN, AND THE DISTRICT OF COLUMBIA IN SUPPORT OF PETITIONERS
______________________________
ELLEN F. ROSENBLUM
Attorney General
State of Oregon
BENJAMIN GUTMAN
Solicitor General
JONA J. MAUKONEN
Senior Assistant Attorney General
1162 Court Street N.E.
Salem, OR 97301
XAVIER BECERRA
Attorney General
State of California
MICHAEL MONGAN
Solicitor General
JOSHUA PATASHNIK
Deputy Solicitor General
1300 I Street
Sacramento, CA 95814

LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANISHA S. DASGUPTA
Deputy Solicitor General
JUDITH N. VALE
Senior Assistant Solicitor General
LAURA ETLINGER
Assistant Solicitor General
28 Liberty Street
New York, NY 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
*Counsel

of Record

(Complete counsel listing appears on signature pages.)

INTRODUCTION
This response is submitted on behalf of respondents Oregon, New York,
California,

Colorado,

Connecticut,

Delaware,

Hawai‘i,

Illinois,

Maryland,

Massachusetts, Michigan, Minnesota, Nevada, New Jersey, New Mexico, North
Carolina, Pennsylvania, Rhode Island, Vermont, Virginia, and Wisconsin, and the
District of Columbia (“the state respondents”). The state respondents and the
petitioners in the above-captioned case were aligned below, as plaintiffs-appellees in
separate cases resolved by the same court of appeals judgment. See No. 20-429, Pet.
App. 1a–94a. Pursuant to Supreme Court Rule 12.6, the state respondents submit
this brief in support of the petition for certiorari in the above-captioned case. The
state respondents have also submitted their own petition for certiorari from the
judgment of the court of appeals. See Oregon v. Azar, No. 20-539.
The petitions for certiorari in No. 20-429 and No. 20-539 seek review of an en
banc decision of the U.S. Court of Appeals for the Ninth Circuit that upheld a final
rule promulgated by the Department of Health and Human Services. Among other
things, the final rule prohibits providers providing services funded under Title X of
the Public Health Services Act (Title X) from communicating certain abortion-related
information to their patients, and requires physical separation of Title X–funded care
from healthcare facilities that provide abortion services or information related to
abortion services. The state respondents, like the petitioners, challenged the final
rule as contrary to law and arbitrary and capricious. The preliminary injunctions
entered in their respective cases were reviewed together by the court of appeals and

vacated in the same judgment, which also upheld the final rule on the merits. As the
petitions in No. 20-429 and No. 20-539 explain, the en banc decision of the Ninth
Circuit squarely conflicts with the Fourth Circuit’s en banc decision in Mayor of
Baltimore v. Azar, 973 F.3d 258 (4th Cir. 2020) (en banc). The Secretary of Health
and Human Services and related federal officials and agencies—who are respondents
in No. 20-429 and No. 20-539—have filed a petition for certiorari from the Fourth
Circuit’s en banc decision. See Azar v. Mayor of Baltimore, No. 20-454.
ARGUMENT
If the Court decides to review the legality of the final rule, the state
respondents request that it grant the petitions for certiorari in the above-captioned
case and in No. 20-539—and that it do so instead of, or at least in addition to, any
grant of the petition in No. 20-454. The underlying case in No. 20-454 was brought
by a single municipality. In contrast, the petitioners in this case include the largest
professional association of physicians, residents, and medical students in the United
States, a leading network of family planning providers, a major Title X grantee, and
an organization representing a majority of the public entities and nonprofit
organizations in the Title X network. See American Medical Association v. Azar, No.
20-429, Pet. for Cert. 6-7. The state respondents here (who are also the petitioners in
No. 20-539) comprise twenty-one States and the District of Columbia, and represent
a broad spectrum of Title X stakeholders, including Title X grantees, medical
providers, and public health officials. See Oregon v. Azar, No. 20-539, Pet. for Cert.
11, 26. A number of these States were direct Title X grantees when the final rule was
2

promulgated. Id. at 26. Over 2.4 million patients in these States were receiving Title
X services every year before the final rule’s promulgation. Id. These decades-long
experiences with Title X, and the range of roles that petitioners and the state
respondents have played within the Title X system, will allow them to best assist the
Court in understanding the final rule’s effects on providers, patients, and public
health.
CONCLUSION

The petitions for a writ of certiorari in this case and in Oregon v. Azar, No. 20539 should be granted.
Dated:

New York, NY
November 4, 2020
Respectfully submitted,

Ellen F. Rosen blum
Attorney General
State of Oregon
Benja min N. Gut m an
Solicitor General
JONA J. MAUKONEN
Senior Assistant Attorney General
Xavi er Becerr a
Attorney General
State of California
Mic ha el Mong an
Solicitor General
Joshu a Patashni k
Deputy Solicitor General

Letitia James
Attorney General
State of New York

_£K

Barba ra D. Underwo od *
Solicitor General
Anis ha S. Dasgup ta
Deputy Solicitor General \
Judi th N. Vale
Senior Assistant Solicitor General
Laura Etlinger
Assistant Solicitor General

barbara.underwood@ag.ny.gov
* Counsel of Record

(Counsel listing continues on next page.

3

PHIL WEISER
Attorney General
State of Colorado
136 State Capitol Bldg.
Denver, CO 80203

JOSH SHAPIRO
Attorney General
Commonwealth of
Pennsylvania
Strawberry Sq., 16th Fl.
Harrisburg, PA 17120

AARON FORD
Attorney General
State of Nevada
100 North Carson St.
Carson City, NV 89701

WILLIAM TONG
Attorney General
State of Connecticut
P.O. Box 120
55 Elm St.
Hartford, CT 06106

PETER F. NERONHA
Attorney General
State of Rhode Island
150 South Main St.
Providence, RI 02903

GURBIR S. GREWAL
Attorney General
State of New Jersey
25 Market St.
Trenton, NJ 08625

KATHLEEN JENNINGS
Attorney General
State of Delaware
820 N. French St., 6th Fl.
Wilmington, DE 19801

THOMAS J. DONOVAN, JR.
Attorney General
State of Vermont
109 State St.
Montpelier, VT 05609

HECTOR BALDERAS
Attorney General
State of New Mexico
P.O. Drawer 1508
Santa Fe, NM 87504

CLARE E. CONNORS
Attorney General
State of Hawai‘i
425 Queen St.
Honolulu, HI 96813

MAURA HEALEY
Attorney General
Commonwealth of
Massachusetts
One Ashburton Pl.
Boston, MA 02108

MARK R. HERRING
Attorney General
Commonwealth of Virginia
202 North 9th St.
Richmond, VA 23219

KWAME RAOUL
Attorney General
State of Illinois
100 W. Randolph St.
Chicago, IL 60601

DANA NESSEL
Attorney General
State of Michigan
P.O. Box 30212
Lansing, MI 48909

JOSHUA KAUL
Attorney General
State of Wisconsin
P.O. Box 7857
Madison, WI 53707

BRIAN E. FROSH
Attorney General
State of Maryland
200 St. Paul Pl., 20th Fl.
Baltimore, MD 21202

KEITH ELLISON
Attorney General
State of Minnesota
102 State Capitol
75 Rev. Dr. Martin Luther
King Jr. Blvd
Saint Paul, MN 55101

KARL A. RACINE
Attorney General
District of Columbia
Suite 630 South
441 4th St., NW
Washington, DC 20001

JOSHUA H. STEIN
Attorney General
State of North Carolina
114 W. Edenton St.
Raleigh, NC 27603
4

